                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




          We investigated various allegations against an IVSF awardee institution' of poor management and
          financial improprieties with respect to an NSF award.2 We also investigated an allegation that
          the PI on the award,3who was formerly an employee of NSF, engaged in a conflict of interest
          (COI) by attending a panel discussion at IVSF within one year of his resignation from the agency.

          Upon reviewing the allegations and correspondence at issue, we determined that the management
          issues were more appropriately within the purview of NSF management, and we informed the
          Complainant that he could bring those allegations to the attention of the Program Office. We
          also determined that the disability discrimination issues were more appropriately within the
          purview of NSF's Office of Equal Employment Opportunity and Civil Rights at NSF, and we
          will inform the Complainant of his right to bring those issues to the attention of that office.

          With respect to the COI allegation, OIG requested and reviewed related correspondence from the
          program office that established that the PI had permission from NSF's Designated Agency Ethics
          Official (DAEO) to attend and participate in the meeting with NSF. Therefore, we determined
          that there was no COI.

          With respect to misuse of grant funds, Complainant alleged that the awardee used NSF award
          funds tb pay for a consultant of a Department of Education ward^ because there were no funds
          remaining in that award. In fact, the project appeared to have been dually supported by the NSF
          and DoEd awards, and therefore, both awards were properly used to fund the consultant at issue.
          In addition, Complainant alleged that the awardee used NSF award funds to pay him salary for
          time that he was not permitted to report to work, and to pay him a lump sum pursuant to a
          settlement agreement, that included attorney's fees. The documentation received from the
          awardee did not substantiate these allegations, or any of the other more minor allegations that


          Therefore, no further OIG action is warranted.

          Accordingly, this case is closed.




NSF OIG Fonn 2 (1 1/02)
                                                                                             I
